           OFFICE OF

    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



  THE ACCOUNTING OF THE SOCIAL
 SECURITY ADMINISTRATION’S FUNDS
   IDENTIFIED FOR RECOVERY AS A
    RESULT OF THE OFFICE OF THE
INSPECTOR GENERAL INVESTIGATIONS

    July 2001     A-15-99-82016


   MANAGEMENT

  ADVISORY REPORT

                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and

      investigations relating to agency programs and operations.

  o   Promote economy, effectiveness, and efficiency within the agency.

  0   Prevent and detect fraud, waste, and abuse in agency programs and

      operations.

  0   Review and make recommendations        regarding existing and proposed

      legislation and regulations relating to agency programs and operations.

  0   Keep the agency head and the Congress fully and currently informed of

      problems in agency programs and operations.


  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
MEMORANDUM
                                                     Office of the Inspector General
Date:       JUl     ,   8   2001                                                             Refer To:


To:     Larry G. Massanari
        Acting Commissioner
         of Social Security

        Inspector General


Subject: Management                Advisory    Report:   The Accounting   of Social Security Administration's
        Funds Identified for Recovery as a Result of the Office of the Inspector                    General
        Investigations  (A-15-99-820 16)



        OBJECTIVE

        The objective of this Management Advisory Repor1 was to assess the Social Security
        Administration's (SSA) accounting for the Office of the Inspector General (GIG)
        investigative activities resulting in cour1-ordered restitution, scheduled recoveries, or
        fines. These actions are defined as:

        .         Court-Ordered    Restitution -a court-ordered repayment claimed                from a criminal
                  case after sentencing; can be SSA or non-SSA program related;

        .         Scheduled   Recoveries   -a planned repayment, not ordered by the courts, of funds
                  to which an individual was not entitled; can be SSA or non-SSA program related.
                  These recoveries do not represent actual funds collected;

        .         Fines -penalties imposed by the courts or special assessment fees imposed upon
                  conviction in a criminal case or judgment in a civil case; can be ordered to be paid
                  specifically to SSA or to the court; and

        .         Settlements/Judgments       -a settlement is a non-court-ordered  payment resulting
                  from a civil action. A judgment is a court-ordered  payment resulting from a civil
                  action either through the Department of Justice (DoJ) civil proceedings or the civil
                  monetary         penalty    program.
Page 2 – Larry G. Massanari

BACKGROUND
SSA has established a Debt Management System (DMS) that is composed of several
partially integrated subsystems that provide debt information. One of these subsystems
is the Recovery of Overpayment Accounting and Reporting system (ROAR), which
tracks title II debts. The ROAR system tracks the cause and amount of the
overpayment, actions against the overpayment record, and the status of repayment,
including any remittance agreements, waiver and/or reconsideration information. Each
time an overpayment is initially established, the ROAR and the Master Beneficiary
Record (MBR) interface to accurately capture the information. The MBR is a record of
title II payments and eligibility.

Two other subsystems of the DMS are the Overpayment Underpayment Process
System (OUPS)1 and the Recovery and Collection of Overpayment Process
(RECOOP). OUPS reports title XVI debts and is responsible for the reporting of
overpayment and underpayment totals for both SSA and the States participating in the
Supplemental Security Income (SSI) program. The RECOOP system bills non-active
title II and XVI beneficiaries for overpayments.

SSA also tracks other programmatic account receivables through the Accounts
Receivable System (ARS). ARS reports and monitors the status of funds due from and
to the Department of the Treasury for both title II and title XVI programs. Transactions
performed by this system include non-receipt payments and stop payments.

The process for posting an overpayment begins by posting the debt to a beneficiary’s
program record. SSA may perform a preliminary review on the overpayment, which
may have been created from the annual earnings test or changes in an individual’s
eligibility factors recorded on the account. Depending on the information obtained from
this assessment, SSA may refer the case to OIG for investigative review, or they may
recoup the overpayment through offset procedures or the RECOOP system.

SSA’s accounts receivable balance as of September 30, 1998, was $5.727 billion.
SSA’s accounts consist mainly of monies due to SSA from individuals who received
funds for which the individual was not entitled under the Old Age and Survivors
Insurance, Disability Insurance, SSI, and Black Lung programs. SSA collected
$1.9 billion on accounts receivable in Fiscal Year (FY) 1998. OIG’s Office of
Investigations (OI) activities are included in the accounts receivable balance and are
part of the dollar universe collected by SSA. Currently, there is no separate system, set
of accounts or flags to identify, classify and account for OI investigative activities.

OIG developed and continues to refine the Allegation and Case Investigative System
(ACIS). This system is used to record data related to criminal and civil investigations
including SSA funds identified for recovery. To meet the requirements of the Omnibus


1
  Subsequent to our fieldwork, OUPS was replaced by the modernized overpayment/underpayment
reporting system.
Page 3 – Larry G. Massanari

Consolidated Appropriations Act of 1997 2, we reported $23,369,460 of SSA funds
identified for recovery as a result of OI activities during FY 1998 broken down as
follows:

            Types of Funds                           Dollar Amounts
            Court-Ordered Restitution                $     7,932,156
            Scheduled Recoveries                          15,158,149
            Fines                                             53,275
            Settlements/Judgments                            225,880
                         Total Funds                 $    23,369,460

As of the end of our fieldwork, SSA had collected approximately $954,000, or
9.1 percent of the $10.5 million total dollar amount of the 1998 cases we reviewed.

According to the DoJ, collecting all court-ordered restitution in a criminal case is the sole
responsibility of DoJ staff. Such monies are collected on behalf of the client agencies.
Under current procedures, DoJ’s responsibility for collections continues, even though
the convicted individual may be released from probation status. The physical payments
flow through the relevant court clerk, who then disburses such funds to the client
agencies.

SCOPE AND METHODOLOGY
The objective of this review was to assess SSA’s accounting of OI investigative
activities resulting in court-ordered restitution, scheduled recoveries, or fines. We did
not review settlements/judgements. To accomplish our objective, we:

•	 Took a non-statistical sample of 256 cases from the OI ACIS system for FY 1998.
   The dollar amount of these cases was $10.5 million, or 45 percent of the total SSA
   funds identified for recovery reported in the FY 1998 Social Security Accountability
   Report;

•	 Obtained MBR and Supplemental Security Records (SSR) for each case selected.
   Personnel from SSA Office of Systems and OIG assisted in determining whether
   SSA had posted the overpayment amounts to a program record;

•	 Reviewed SSA’s Program Operations Manual System (POMS) pertaining to the
   recording of overpayments;

•	 Reviewed the OI Special Agent Handbook pertaining to the documentation of
   monetary recoveries;


2
    Public Law No. 104-208.
Page 4 – Larry G. Massanari

•	 Interviewed staff members of SSA’s Center for Integrity and Security Support;
   Division of Program System Requirements; Office of Finance, Assessment and
   Management; Office of Public Service and Operations Support; Mid-Atlantic
   Program Service Center (MATPSC); and OIG to obtain an understanding regarding
   the recording of accounts receivable to the DMS and ACIS.

We conducted our fieldwork at SSA Headquarters in Baltimore, Maryland from
May 1999 through April 2000.

Due to the interrelationship between SSA’s accounting for OI’s investigative recovery
activities and OI’s reporting of such activities to SSA, OIG’s Office of Audit (OA)
reviewed OI’s investigative reporting procedures related to recoveries. Because of the
lack of organizational independence between OIG’s OA and OI, the results and
recommendations that pertain to OI were reported to OI as part of a separate internal
OIG report.

RESULTS OF REVIEW
For our non-statistical sample, we selected 256 OIG-OI closed cases claimed as
recoveries in FY 1998, which included 143 scheduled recoveries, 107 restitution by
court–order, and 6 fines (10 other fines were reviewed, but they were part of court-
ordered restitution cases). The following results are based on our review of these cases.

DIFFERENCES BETWEEN FUNDS IDENTIFIED BY OI INVESTIGATIONS AND THE
AMOUNT OF ACCOUNTS RECEIVABLE POSTED BY SSA

SSA had posted accounts receivable balances for 228 (135 scheduled recoveries and
93 restitution) of the 256 restitution and scheduled recoveries that we reviewed. For the
cases that were posted, we determined that a net difference of $830,356 existed
between the dollar amounts reported in the OI ACIS system and the MBR and SSR for
each individual account record. These differences represent 97 cases in our sample.

Based on discussions with OI and SSA personnel, overpayments involving possible
fraud are reviewed by OI and then forwarded to the appropriate SSA field office for
review of eligibility criteria and overpayment amount determination. SSA does not have
a written policy in place to notify OI with documentation that a recovery has been posted
after the investigation, including amounts changed or recomputed by SSA personnel for
administrative purposes. As a result, there is evidence that SSA’s accounts receivable
balance may be misstated.
Page 5 – Larry G. Massanari

COURT-ORDERED RESTITUTION RESULTING FROM INVESTIGATIONS MAY NOT
BE REFLECTED IN SSA’S DMS

We reviewed 107 cases classified by ACIS as court-ordered restitution. We determined
that SSA did not post 14 of these cases, totaling $746,189, to a program record. This
represents 7.1 percent of the $10.5 million we reviewed. SSA has a responsibility to
track all civil judgments and court-ordered restitution to be paid to SSA by the courts
and to apply credits to the proper account when the funds are received. However, SSA
relies on other entities to submit the relevant information to them regarding court-
ordered restitution. If this information is not made available to SSA, then SSA cannot
post the restitution. Nonetheless, it is SSA’s responsibility to have procedures in place
to ensure that these entities provide this information to SSA on a timely basis. When
this data is not provided timely, it is SSA’s responsibility to take appropriate action to
obtain that information.

We contacted MATPSC staff for clarification on the reporting process for any court-
ordered restitution. All restitution documentation is handled at MATPSC. As restitution
payments are received from the clerks of the courts, they are recorded against the
receivable. The remittance may contain identifying information, which will allow SSA to
post the restitution amount to the MBR or SSR record of either the subject of the
investigation or the victim of the fraud. SSA staff stated that in some cases, money
received may not have any information identifying the specific account or case. When
this happens, MATPSC staff will pull the completed Form OI-68, Report of Court
Ordered Restitution/Judgement. This form is completed for every case in which a court
orders a defendant to return or pay funds to SSA. The OI-68 contains all the necessary
information to identify the remittance. OI sends the OI-68 to MATPSC when the
investigation is closed. However, in some cases, neither the subject nor the victim has
received benefits, and as a result, there is no program record to post the restitution
against. SSA’s process for recording restitution in these instances was not automated.
Court-ordered restitution amounts and payments were annotated and tracked on 3”x5”
index cards. These types of cases would include such things as fraud cases where
money was taken from SSA, and there is no beneficiary record to be charged. For
current restitution cases, they have developed an electronic data base file.

The effect of not recording court-ordered restitution is that SSA’s accounts receivable
balance may be understated, and money owed to SSA may not be collected. For
example, 2 of the 14 restitution cases not posted by SSA, totaling $173,008, show that
the convicted individuals are in current pay status. These two individuals, who owe
money to SSA as a result of a court-ordered restitution, are receiving monthly benefit
checks from SSA. SSA is not collecting from these two individuals because DoJ is
responsible for collecting court-ordered restitution in criminal cases for the client
agencies.
Page 6 – Larry G. Massanari

OI SCHEDULED RECOVERIES ARE NOT ALWAYS POSTED BY SSA TO THE DMS

We reviewed 143 cases classified by ACIS as scheduled recoveries. Based on our
review, six scheduled recoveries totaling $237,806 were not posted by SSA to the DMS.
This represents 2.2 percent of the $10.5 million we reviewed. SSA’s initiation of
withholding future payments will constitute a scheduled recovery. In addition, we noted
2 cases of the 143 scheduled recoveries, totaling $1,676,800 that consisted of non-SSA
funds. SSA appropriately, did not post these cases.

Our review of SSA’s POMS indicated there was no written policy to ensure that the OI’s
scheduled recoveries are posted to SSA’s DMS. Specifically, POMS does not specify
the type of documentary evidence that SSA is to provide OI to indicate that the recovery
was posted to the DMS. The effect of not recording scheduled recoveries is an
understatement to SSA’s accounts receivable balance, and also, there is the potential
that SSA will not collect money owed to the Agency.

OTHER MATTERS
In addition, we noted that SSA had posted 11 cases totaling $503,816 to their DMS for
which the subject was in current pay status, and SSA had not collected any of the debt
owed. Four of these 11 cases are by court-ordered restitution. Based on our review of
POMS, GN 02201.055 B.2, if any benefit payments become due after conviction,
benefits are to be withheld for the full amount of the monthly benefit until the
overpayment is collected. Therefore, SSA lost the opportunity to immediately collect
amounts owed from current benefit payments.

STATUS OF COLLECTIONS ON THE CASES REVIEWED

Through our work, we determined that SSA is responsible to collect only $8.8 million of
the $10.5 million owed to SSA in the cases we reviewed. At the time of our fieldwork,
SSA had collected $954,073 of the $8.8 million (10.8 percent) in these cases.

ISSUES TO BE ADDRESSED BY OI

We advised OI of our findings under a separate internal report. The following issues are
discussed in that report:

�	 The impact of the differences between OI claimed recoveries and the amount of
   accounts receivable posted by SSA on OI’s claimed recoveries as a result of OI not
   monitoring cases after closure to ensure proper postings;

�	 OI’s responsibilities for informing SSA of court-ordered restitution to ensure accurate
   reporting through consistant completion of reporting form (OI-68);

�	 OI’s responsibilities for providing documentation to SSA for scheduled recoveries
   and appropriate follow-up records to ensure recoupment of program losses;
Page 7 – Larry G. Massanari

�	 Correct reporting of SSA funds identified for recovery versus non-SSA funds
   identified for recovery.

The following information provides a status of the actions that have been taken to
address these recommendations. It is noted that sections of the OI Special Agent
Handbook that addresses the procedures mentioned in this report have been revised
twice since FY 1998. The OI-68 form referred to was revised June 1, 1998, as a result
of discussions with various SSA components. The form used during the first 8 months
of FY 1998 was considerably different from the one used during the final 4 months of
the year. OI and SSA have had numerous meetings to discuss many of the necessary
changes to the process described in the report.

On an ongoing basis, OIG will follow up on cases to ensure that SSA has properly
posted the items as accounts receivable and determine whether SSA has waived any of
the funds identified for recovery. OIG will also work with SSA to perform periodic
reconciliations between ACIS and SSA’s DMS.

OI has also made numerous requests of SSA to reconfigure its DMS to allow OIG to
electronically determine what has been posted and paid as a result of OIG-OI
investigations. SSA has not placed this project in its 5-year systems plan.

CONCLUSIONS AND RECOMMENDATIONS
Based on the information contained in this report, we recommend that:

1. 	 OI management and SSA work together to develop, formalize and implement
     procedures regarding how OI investigative recoveries are to be posted to and
     reported by SSA’s DMS. Specifically, we recommend that the procedures include:

   (a) the calculation method for all amounts to be recovered;

   (b) OI communication of the investigative activities to proper SSA personnel; and

   (c) documentation that SSA is to provide to OI to verify that the funds identified for
       recovery were posted to SSA’s DMS. We recommend that the procedures be
       incorporated in both SSA’s POMS and OI’s Special Agent Handbook. In
       addition, SSA needs to configure their DMS to allow OI to electronically
       determine what has been posted and paid as a result of OI investigations. OI
       should also be able to determine if SSA has waived any of the funds identified for
       recovery by OI. A periodic reconciliation between ACIS and SSA’s DMS is
       advised.

2. 	 SSA should diligently pursue the withholding of a portion of the benefit checks for
     individuals in current pay status that owe debt to SSA.
Page 8 – Larry G. Massanari

3. 	 SSA should establish procedures to post cases that do not involve a beneficiary
     record. (e.g. employee fraud)

AGENCY COMMENTS
In response to our draft report, SSA agreed with our recommendations. The full text of
SSA’s comments is included in appendix B. SSA has been working with OIG to
improve all aspects of the process for accounting for funds identified for recovery as a
result of OIG investigations. SSA has also formed the Debt Collection Workgroup to
develop a process and system for controlling debts owed by individuals not entitled to
Social Security benefits, such as employees who have committed fraud.

SSA provided additional comments relating to other matters addressed in our report.
Their comments are as follows:

�	 OIG’s report refers to SSA’s lost opportunity to collect court-ordered restitution
   involving beneficiaries in the current pay status. The report also states that DoJ is
   responsible for collecting court-ordered restitution. These statements reflect
   contradictory SSA/DoJ responsibility.

�	 The objective of OIG’s review does not reflect the proper sequence of events
   involving investigative activities and court-ordered restitution, scheduled recoveries
   or fines.

�	 Regarding the issue on the differences between the amounts of funds identified by
   OI investigations and the amounts of SSA accounts receivable, it is unclear whether
   OIG considered certain items as possible, contributing reasons for some of these
   differences.

�	 SSA did not agree with suggested correlation between the lack of an SSA policy for
   notifying OI that a recovery has been posted and a misstatement of the Agency’s
   accounts receivables.
Page 9 – Larry G. Massanari

OIG’s RESPONSE
We acknowledge the steps SSA has taken to work more effectively with OI regarding
investigative activities resulting in overpayments and posting the overpayment amounts
to the program record. However, there were several other matters that SSA
commented on regarding our report. The following addresses each of their concerns:

�	 There were 11 current pay status cases in which SSA was not collecting amounts
   owed from current benefit payments. Seven of the 11 cases were not court-ordered
   restitution. After verifying our records, we found that two of the cases are
   withholding benefits. However, these withholdings are being applied to other
   outstanding overpayments. The remaining five cases reflect that the individual is
   collecting benefits while an overpayment is on the program record and no monies
   are being collected.

   Four of the 11 cases were court-ordered restitution. We understand that SSA is
   prohibited from collecting from these individuals because DoJ is responsible for
   collecting court-ordered restitution. SSA needs to initiate and develop a
   Memorandum of Understanding (MOU) with DoJ, which would allow SSA to collect
   money from individuals in current pay status. OIG is agreeable to review and
   comment on any MOU that SSA develops.

�	 SSA suggested we modify the wording of our objective to reflect the proper
   sequence of events with regards to accounting for OIG investigative activities. This
   change is reflected in our report.

�	 SSA was unclear whether OIG considered contributing reasons for the differences
   between amounts identified for recovery and recorded through ACIS and the DMS.
   During our review, we noted that the 97 cases (55 scheduled recoveries and
   42 court-ordered restitution) within our sample had different amounts reported in
   ACIS and DMS. There may be various reasons for these differences. For example,
   during interviews with SSA personnel from the Center for Integrity and Security
   Support and the Office of Systems Security and Program Integrity, it was stated that
   overpayment amounts are often changed after an investigation has been closed.
   These changes in overpayment amounts occur because SSA personnel recalculate
   the initial overpayment. In addition, when the court has adjudicated a case and
   imposed a court-ordered restitution, the amount may include fines and court
   imposed penalties. Fines and penalties are not separately reflected on the program
   record, which makes it difficult to determine if the difference is a result of fines and/or
   court imposed penalties.
Page 10-   Larry G. Massanari

SSA did not agree with 01G's conclusion that a misstatement of the Agency's accounts
receivables may occur because SSA does not have a policy for notifying 01 that a
recovery has been posted. our conclusion was meant to show the effect that a lack of
policy could lead to the possibility that overpayment amounts related to 01G
investigations are not being posted accurately to the program record. For example, two
of our recovery cases show different amounts between the ACIS data base and the
program record. In the first example, the ACIS data base has the recovery amount
posted as $38,338, and the program record has the overpayment recorded as $76,677.
In the second example, the ACIS data base has the recovery amount posted as
$39, 138, and the program record has the overpayment recorded as $6,510. Without a
policy in place to accurately communicate investigative overpayment information
between SSA and 01, SSA can not be sure that their accounts receivable balance is
accurately stated.




                                                  Jk~
                                         AJameS         G.   Huse,   Jr.
                                    Appendices
APPENDIX A – Acronyms


APPENDIX B – Agency Comments


APPENDIX C - OIG Contacts and Staff Acknowledgments

                                                           Appendix A

Acronyms
ACIS     Allegation and Case Investigative System


ARS      Accounts Receivable System


DMS      Debt Management System


DoJ      Department of Justice


FY       Fiscal Year


MATPSC   Mid-Atlantic Program Service Center


MBR      Master Beneficiary Record


MOU      Memorandum of Understanding


OA       Office of Audit


OI       Office of Investigations


OIG      Office of the Inspector General


OUPS     Overpayment Underpayment Process System


POMS     Program Operations Manual System


RECOOP   Recovery and Collection of Overpayment Process


ROAR     Recovery of Overpayment and Accounting and Reporting System


SSA      Social Security Administration


SSI      Supplemental Security Income


SSR      Supplemental Security Record

                  Appendix B
Agency Comments
                                                       .J-\. s£cv
                                                      ~Ci         :t.
                                                     ~ ~. ~~~
                                                           usA'~
                                                     \~ IIIIIII J
                                                         i\'1STi-!­

                                        SOCIAL            SECURI1Y


MEMORANDUM


Date:      April   16,   2001                                                    ReferTo: SlJ-3

To:        JamesG. Ruse, Jr.
           Inspector General

From:      Larry G. Massanari
           Acting Commission

Subject:   The Office of the Inspector General Draft Report, "The Accounting of the Social Security
           Administration's Funds Identified for Recovery as a Result of the Office of the Inspector
           General Investigations" (A-15-99-82016}-INFORMATION

           Our comments on this report are attached. If your staffhave any questions, they may contact
           Mark Welch on extension 50374.

           Attachment:
           SSA Comments
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT REPORT, “THE

ACCOUNTING OF THE SOCIAL SECURITY ADMINISTRATION’S FUNDS IDENTIFIED FOR

RECOVERY AS A RESULT OF THE OFFICE OF THE INSPECTOR GENERAL INVESTIGATIONS”

(A-15-99-82016)


Thank you for the opportunity to review this OIG draft report. We agree that

the process for accounting for recoveries relating to OIG investigations can

be improved, and have begun working with OIG to develop the appropriate

enhancements. Actions underway and planned that are responsive to the issues

raised in this report are described below.


OIG Recommendations


Based on the information contained in this report, we recommend that:


1.	 The Office of Investigations (OI) management and the Social Security

    Administration (SSA) work together to develop, formalize and implement

    procedures regarding the calculation method for all amounts to be

    recovered as a result of investigative activities.


2.	 OI management and SSA work together to develop, formalize and implement

    procedures regarding the communication of the investigative activities to

    proper SSA personnel. We recommend that these procedures be incorporated

    in both SSA’s Program Operations Manual Systems (POMS) and OI’s Special

    Agent Handbook (SAH).


3.	 OI management and SSA work together to develop, formalize and implement

    procedures regarding the documentation that SSA is to provide to OI to

    verify that the funds identified for recovery were posted to SSA’s Debt

    Management System (DMS). We recommend that these procedures be

    incorporated in both SSA’s POMS and OI’s SAH.


4.	 SSA needs to configure their DMS   to allow OI to electronically determine

    what has been posted and paid as   a result of OI investigations. This

    configuration should allow OI to   determine if SSA has waived any of the

    funds identified for recovery by   OI.


5.	 A periodic reconciliation between OI’s Allegation and Case Investigative

    System (ACIS) database and the SSA DMS is advised.


Comment


We agree. SSA and OI have begun working together to improve all aspects of

the process for accounting for funds identified for recovery as a result of

OIG investigations. Our goal is to develop a business process that enables

both SSA and OIG to identify, monitor, and control the cases. We want to

achieve maximum collections and provide information such as the amount of

debt collections on the cases involving court-ordered restitution, penalties,

and fines. This project has been established as a key initiative in SSA’s

tactical plan to Combat Fraud.


OIG Recommendation


6.	 SSA should diligently pursue the withholding of a portion of the benefit

    checks for individuals in current pay status that owe debt to SSA.


Comment


We agree. When a beneficiary is in current pay status and incurs a debt, we

start debt collection efforts by proposing to withhold 100 percent of the

individual’s monthly benefit (for Old-Age, Survivors, and Disability

                                       B-2
Insurance beneficiaries – the corresponding maximum rate of withholding for

Supplemental Security Income recipients is 10 percent). If the person can

demonstrate financial need, we withhold a lesser amount. However, an

agreement and business process must be developed between OIG, the Department

of Justice (DOJ), and SSA for cases of court-ordered restitution because DOJ

reserves the right to collect on those cases. We will address this issue

within the joint SSA/OI workgroup noted above.


OIG Recommendation


7.	 SSA should establish procedures to post cases that do not involve a

    beneficiary record. (e.g. employee fraud)


Comment


We agree. SSA’s 5-Year Systems plan contains an initiative to do what OIG

suggests. We have formed a Debt Collection Workgroup to develop a process

and system for controlling debts owed by individuals not entitled to Social

Security benefits, such as employees who have committed fraud. The workgroup

has begun the required planning and analysis.


Other Matters


Throughout the OIG draft report are statements referring to the

responsibility of the DOJ to collect court-ordered restitution on behalf of

client agencies. However, the report (page 6) also cites cases involving

court-ordered restitution for which “SSA lost the opportunity to immediately

collect amounts owed from current benefit payments.” These statements

reflect contradictory SSA/DOJ responsibility. As noted in the comments on

recommendation number 6, we would like to work with OIG and DOJ to develop an

memorandum of understanding that addresses this issue and maximizes the

government’s ability to recover in these cases.


On page 1 the report states that the objective of this OIG review was to

assess SSA accounting for OIG investigative activities resulting from court-

ordered restitution, scheduled recoveries, or fines. Since OIG’s

investigative activities result in court-ordered restitution, scheduled

recoveries, and fines, we suggest that the statement of the review objective

be modified to reflect the proper sequence of events.


In the report’s discussion of the differences between the amounts of funds

identified by OI investigations and amounts of SSA accounts receivable (page

4), it is unclear whether OIG considered certain items as possible,

contributing reasons for some of the differences between amounts identified

for recovery and recorded through ACIS and the DMS. To the extent that such

items were considered by OIG, we suggest that the report be revised to

reflect that they were examined as part of this review. For example, in

court-ordered restitution cases, the amount that must be repaid to SSA may be

less than the total overpayment made to the individual. Additionally, the

amount may include a penalty or fine, and may include benefits overpaid to

auxiliary individuals on the same earnings record. In the latter case, the

overpayment would have been caused by actions of the convicted criminal.


The report suggests that there is a correlation between the lack of an SSA

policy for notifying OI that a recovery has been posted and a misstatement of

the Agency’s accounts receivables (page 4, last paragraph). We don't agree

that there is necessarily such a linkage. We suggest that the report provide

an explanation of why such a cause-and-effect relationship exists.    When we

make a collection it is accounted for as such.



                                     B-3
The report indicates (page 7) that OIG has made numerous requests of SSA to

reconfigure the DMS to allow OIG to electronically determine what has been

posted and paid as a result of OIG investigations, and that SSA has not

placed this project in SSA’s 5-year systems plan. SSA has several projects

to improve our ability to account for debts and recoveries from non-entitled

persons. SSA’s Title XVI 5-Year Systems Plan includes Initiative No. 1561,

Justice Department/Fraud Tracking, while SSA’s Title II 5-Year Systems Plan

includes Initiative No. 1371, Debts Owed by Non-Entitled Persons. Both are

currently unscheduled initiatives. Also, as noted above in our comments on

recommendation 7, we have convened a Debt Collection Workgroup to develop an

approach and strategy to account for non-beneficiary (i.e., non-entitled

debtors) debts owed to SSA.





                                     B-4
                                                                      Appendix C
OIG Contacts and Staff Acknowledgments
OIG Contacts

Fred Nordhoff, Director

Financial Management and Performance Monitoring Audit Division

(410) 966-6676


Vicki Vetter, Audit Manager, (410) 966-9081


Acknowledgements

In addition to those named above:

   Judith Kammer, Auditor-in-Charge

   Kristen Schnatterly, Staff Auditor

   Annette DeRito, Program Analyst


   For additional copies of this report, please contact Office of the Inspector General’s
   Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
   A-15-99-82016.
                           DISTRIBUTION SCHEDULE


                                                                             No. of
                                                                            Copies

Commissioner of Social Security
                                                 1
Management Analysis and Audit Program Support Staff, OFAM
                      10
Inspector General
                                                               1
Assistant Inspector General for Investigations
                                  1
Assistant Inspector General for Executive Operations
                            3
Assistant Inspector General for Management Services
                             1
Assistant Inspector General for Audit
                                           1
Deputy Assistant Inspector General for Audit
                                    1
 Director, Systems Audit Division
                                               1
 Director, Financial Management and Performance Monitoring Audit Division        1
 Director, Operational Audit Division                                            1
 Director, Disability Program Audit Division                                     1
 Director, Program Benefits Audit Division                                       1
 Director, General Management Audit Division                                     1
Issue Area Team Leaders
                                                        25
Income Maintenance Branch, Office of Management and Budget
                      1
Chairman, Committee on Ways and Means
                                           1
Ranking Minority Member, Committee on Ways and Means
                            1
Chief of Staff, Committee on Ways and Means
                                     1
Chairman, Subcommittee on Social Security
                                       2
Ranking Minority Member, Subcommittee on Social Security
                        1
Majority Staff Director, Subcommittee on Social Security
                        2
Minority Staff Director, Subcommittee on Social Security
                        2
Chairman, Subcommittee on Human Resources
                                       1
Ranking Minority Member, Subcommittee on Human Resources
                        1
Chairman, Committee on Budget, House of Representatives
                         1
Ranking Minority Member, Committee on Budget, House of Representatives           1
Chairman, Committee on Government Reform and Oversight                           1
Ranking Minority Member, Committee on Government Reform and Oversight            1
Chairman, Committee on Governmental Affairs                                      1
Ranking Minority Member, Committee on Governmental Affairs                       1
Chairman, Committee on Appropriations, House of Representatives                  1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate            1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                  1
Ranking Minority Member, Senate Special Committee on Aging                   1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                             1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                        98
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
the Agency, as well as conducting employee investigations within OIG. Finally, OEO
administers OIG’s public affairs, media, and interagency activities and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
